No.

IN THE
SUPREME COURT OF THE UNITED STATES

Michael Owen Harriot
.(-Y-our-Name).

— PETITIONER

vs.
United States of_America_ — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

U.S. Court of Appeals for the Fourth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Michael Owen Harriot
(Your Name)
USP,Lewisburg, P.D. BOX 1000
(Address)

Lewisburg, Pennsylvania 17837
(City, State, Zip Code)
N/A
(Phone Number)

V

QUESTION(S) PRESENTED

IS WHETHER THE FOURTH CIRCUIT'S LACK'
AUTHORITY SEE 28 U.S.C. § 1291,ON ITS
OWN TO RAISED § 2401(b)'S TIME BAR WHEN
THE DISTRICT COURT'S OPINION DID NOT
REST ON § 2401(b),BUT IS BASED SOLELY
ON HICK'S BAR ?

II

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
^ ^ fn1 Pt““0t appear 111 tlle ^P^011 of
case on the cover page. A list of
all parties to the proceeding in the court whose judgment
is the subject of this
petition is as follows:

III

TABLE OF CONTENTS
OPINIONS BELOW............. .

1

JURISDICTION.......................
..••2
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE................................
4-12
REASONS FOR GRANTING THE WRIT......................
CONCLUSION..............

13
..... 14

INDEX TO APPENDICES
APPENDIX A

( Fourth Circuit February 26,2020, Opinion )

APPENDIXB

( The Magistrate Judge's Report and District Judge's Opinion)

APPENDIXG

( The Fourth Circuit April 28,2020, Rehearing and Rehearing
En banc denied Opinion ) .
\

APPENDIX D
APPENDIX E
APPENDIX F

. TV

!

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES

5
Albright v Oliver,510 U.S. 266(1994)
ii,6,7,8,9,11,12
Heck v Humphrey,512 U.S. 477(1994)
11
Holmberg v Armbrecht,327 U.S. 392 (1946)
Irvin v Department of Veteran Affair,498 U.S. 89(1990) 10,11
4,11,13
Millbrook v United States,569 U.S. 266 (2013)
9,10,11
United States v Kwai Fun Wong,575 U.S. 402(2015)
10
United States v Kubrick,444 U.S. 111(1979)
11,12,13
Wallace v Kato,549 U.S. 384(2007)
Harriot v United States,795 Fed. Appx.215(4th Cir.2020) 9
13
Ignacio v United States,674 F.3d 252(4th Cir.2012)
8
Jackson v Lightsey,775 F.3d 170(4th Cir.2014)

STATUTES AND RULES
18 U.S. § 3052
28 U.S.C. § 1291
28 U.S.C. § 1346(b)
28 U.S.C. § 2106 ,
28 U.S.C. § 2401(b)
28 U.S.C. § 2671-2680
28 U.S.C. § 2675(a)
28 U.S.C. § 2680(h)
Fed. R. Civ. P. Rule 4(i)(A)(l)
4th Cir Rule 34(b)

4,13
ii, 9
11
2
ii,5,6,7,8,9,10,lln4
11
5,6
3,4,11,13
6,12
8,9

OTHER
U.S. Dist LEXIS 172497 (D.S.C. 2019)
U.S. Dist. LEXIS 172756 (D.S.C. 2019)

V

8
7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ X) For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

[X] reported at 795 Fed. Appy.215; Mn-.iQ-7.su
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix ^
to
the petition and is.
Pist. LEXIS 172756;C/A No. 3:19-2482-JFA-SVH
LX1 reported at Dist. LEXIS 172497•r/A.Mnor,
[ ] has been designated for publication but is not yet reported; or,
[.] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court

to the petition and is
[ ] reported at_____________________________________ ; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[:X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was February 26,2020
[ ] No petition for rehearing was timely filed in my case.
[ }| A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: April 28,2020____
and a copy of the
order denying rehearing appears at Appendix
C,
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including ______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
Petitioner's Fourth Amendment 'based on' fraudulent
concealment were affirmed by an unpublished Fourth Circuit's
opinion which is sufficient basis for reviewed by this Supreme
Court to vacate, or reverse any judgment 28 U.S.C. § 2106

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix
[ ] A timely petition for rehearing was thereafter denied on the following date:
------ ------------------------ and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

!

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

FOURTH AMENDMENT - False Arrest and False Imprisonment
28 U.S.C. § 2680(h) Law Enforcement proviso exception
28 U.S.C. § 2401(b)

3

STATEMENT OF THE CASE
A. This Supreme Court is ask again to consider the Petitioner's
Fourth Amendment egregious artest~ahditortious detention without
judicial Warrant Unsupported by Probable Cause and remains unanswer
on the merits see Case No.18-9222, in the District of Columbia, South
Carolina("S.C."), on July 24,1999 , under the Federal Tort Claims
ActtS^ET.^A) 28 U.SC. § 2680(h),Law Enforcement Proviso alleging
False Arrest and False Imprisonment by Federal Bureau of Investigator
(FBI) officer(s),See 18 U.S.C. § 3052; see also Mjllbrook v United
States,569 U.S. 50 (2013);
facts and procedurally Background
. B. On Saturday,July,24,1999, before obtaining a judicial
warrant, Sheriff's deputies arrested Petitioner at the Columbia
Place Mall as a passenger in a taxi-cab in Columbia, SC, at the
direction of Special Agent of the FBI,Robert "WAizenhofer" in the
District of Charleston, SC. Hours later at the Columbia place mall,
two FBI special agents,Rodney "pritchard and Charles "Klatz" arrived
at the scene and transported Petitioner to the Richland County jail
at the direction of Waizenhofer. Neither the sheriff's deputies
or FBI pritchard or klatz informed Petitioner on the grounds for
his arrest and detention;
C. While in jail on July 25,1999, Waizenhofer and Task Force
Officer, Allen Walker visited Petitioner. Walker's arrested Petitioner
in March of 1997, for Assault and Battery charges. Neither Waizenhofer
or Walker informed Petitioner of the grounds for his arrest and

4

detention,but, instead, they interrogated and advised Petitioner
of how much time he is facing for drug activity;
D. At the time of Petitioner Initial Appearance hearing on
July 26,1999, Petitioner was brought before the Magistrate Judge
Bristow "Merchant,"where Waizenhofer filed a "Criminal Complaint
1
Case No.3:99-MJ-481, as an attempted for an arrest warrant application."
Neither Waizenhofer or Defense Attorney,Herbert Louthian jr. or the
Magistrate Judge Merchant put Petitioner on "inquiry notice" of the
"arrest without legal process violation, and is entitled to a hearing."
E. That information was concealed from petitioner and also
the Court(s) during the years until Petitioner on his own in February
2018,"uncovered" Waizenhofer's fraudulent concealment and as tree-suit,
"deprived Petitioner of his Constitutional Fourth Amendment right
to be free from unreasonable searched and seizured." See Albright
v Oliver,510 U.S. 266( 1994 );
F. Relying on that new information, Petitioner presented his
"administrative claim" to the appropriate FBI agency through the
Standard Form 95( SF-95) on January 3,2019, more than 19 years after
the "accrued [concealed] warrantless arrest on July 24,1999." See
28 U.S.C. §§§2401(b), and 2675(a).

The FBI Chief Division Counsel

Donald A. "Wood" acknowledged the SF-95,however, he returned the
SF-95 to Petitioner on January 10,2019, with a letter indicating
the claim was not perfected;
1. The record is conclusively clear that at no point
July 24,through Sunday, July 25,1999,"did Waizenhofer
warrant for Petitioner arrest" until July 26,1999, as
where the Court's Docket record is tainted with false
known as "§ENCH WARRANT" [ EGF No.2].
5

on Saturday,
had an arrest
an attempted,
information

G.~ On January 22,2019,Petitioner perfected the claim by attaching
copies of Waizenhofer's filed complaint in Case N.3:99-MJ-481,
and indictment filed on April 6,1999, in Case No.3:99-341-MBS,
charging Jinkin Hopkins, ScottrSherpinskas and not Petitioner
Harriot. Petitioner did not received any response from Counsel
Wood,despite having sent a follow up letter on July 22,2019. §
2675(a) provides that,"the failure of any agency to make a final
disposition of a claim within six month after it is filed shall,
at the option of the claimant anytime thereafter, be deemed a
final denial of the claim for purposes of this section."id.;
Hi Petitioner timely sued the United States under the
FTCA's law enforcement proviso for"false arrest and false impri-'
sonment" in the Federal District court of Columbia, SC, where the
-United States Respondent's fraudulent concealed of Petitioner's
arrest and tortious detention without legal process unsupported
by probable cause on July 24,1999. See § 2401(b)( within the six
month be deemed a final denial of the claim);
I. First, the Magistrate Judge Shiva V.Hodges assigned to
this matter granted Petitioner in forma pauperis status. Second,
She directed the Clerk not to service of the Summons and Complaint
upon the United States to answer,to the contrary, as required by
Federal Rule of Civil Procedure(Fed. R. Civ. P.) Rule 4(i)(A)(l).
Third, She"recommends the district Judge to dismiss the FTCA's
complaint with prejudice and without issuance and service of process."
And fourth, She reliance on Heck v Humphrey,512 U.S. 477( 1994),
barred the Petitioner's FTCA's for false arrest and false

6

imprisonment. See U.S. Dist. LEXIS 172756 at *4( D.S.C. 2019)
Appendix B). Nowhere in her four-page report, did she recommended
§ 2401(b)'s time bar.id.;
J. Petitioner moved the Court to recused both the magistrate
judge and district judge Joseph F. Anderson for being substantially
prejudice against Petitioner suing the United States Government
and its Employees by targeting Petitioner's Civil Right Action
not to issued the Summon(s) and Complaint(s) upon the government
to answer See C/A No.3:18-540-JFA-SVH; C/A No.3:18-3164-JFA-SVH;
C/A No.1:20-1266-JFA-SVH; but see C/A No.1:19-2963-JFA-SVH(allowing
service of the summon and complaint upon the United States because
Petitioner asserts the Bureau of Prisons staffs were negligence).
Where the same magistrate and district judge denied Petitioner's
recusal motion rather than a judge not assigned to the case;
K. The Petitioner timely filed a specific objection against
the magistrate judge's reliance on Heck's barred,inter alia. In
doing so, Petitioner contends that "the magistrate judge viewed
Petitioner's FTCA's law enforcement proviso as a malicious prose­
cution claim and this was clear error. [ ECF No.13];
L. First, the district judge stated that," the magistrate
judge correctly opines that Petitioner's claims concerning his
alleged false arrest and false imprisonment are barred by the
holding in Heck. Second, the district judge stated that,"Petitioner
argues that the Report is contrary to Heck.however. Petitioner does
not explain how the report departs from the established precedent."
[ ECF No.16]. Next, thfe district court concluded that,"Petitioner

7

argues that the magistrate judge viewed Petitioner's FTCA claim
as a malicious prosecution and this was clear error"[ ECF No.13].
However, the magistrate judge makes no reference to malicious
prosecution in the Report [ ECF No.13]."See Dist. LEXIS 172497 at
*2,3,and 4(D.S.C. 2019)(Appendix B). Nowhere in his three-page
opinion, did the district judge makes reference to § 2401(b)'s
time bar in its "final decisions."id.;
M. Petitioner filed a "timely notice of appeal," where the
Clerk of the 4th Cir. mailed him an Informal Brief package as provide
by Local Rule 34(b)( requiring court to limit review to issues
raised in pro-se litigant's informal brief; Jackson v Lightsey,
775 F.3d 170,177(4th Cir.2014)(stating that the"informal brief is
an important document, under Fourth Circuit rules, our review is
limited to issues preserved in that brief"). Further, the Petitioner
Consented to pre-paid payments of $505.00 under the PLRA, for his
preserved issues to be heard on the merits,but,instead, his issues
were never considered at all by the Fourth Circuit;
N. With the Fourth Circuit rules 34(b) instructions in
mind, on appeal, Petitioner proceeding pro-se timely filed three
meritorious preserved issues adjudicated on the merits by the district
judge:(1) Whether Heck's bar Petitioner's arrest and detention
without legal process unsupported by probable cause;(2)Requesting
appointed counsel; and (3) the Recusal of the magistrate and district
judges;
0. On February 26,2020, the panel for the Fourth Circuit
affirmed the district court's order not on Heck's bar, but based on
8

§ 2401(b)'s time bar. In reaching that conclusion, the panel's add
words of its own reasoning to invoked the applicable statute of
limitation § 2401 (b)(2018). See 795 Fed. Appx.215,at 216(2020);
see also Appendix A. The Fourth Circuit did not quote or analyze
the text of the FTCA's law enforcement proviso or cite any cases
that had addressed the FTCA's law enforcement proviso for false
2
arrest and false imprisonment. On April 28,2020, the fourth Circuit
denied the Petitioner's rehearing and rehearing en banc See Appendix C;
Because the Fourth Circuit did not considered Petitioner's
three meritorious preserved issues raised under 4th. Cir. Rule 34(b),
Petitioner question presented: Is whether the Fourth Circuit's lack
authority see 28 U.S.C. § 1291,on its own to raised § 2401(b)'s
time bar when the District Court's opinion did not rest on § 2401
(b),but is based solely on Heck's bar? In any events, it did. See
§ 1291( governs appeals from all "final decision of district court");
ARGUMENT
The record is crystal clear that the "final decision of the
district court" did not"based on" or "makes reference to" § 2401
(b)'s time bar see Appendix B; see also § 1291. Even if the Fourth
Circuit were to considered] § 2401(b)'s time bar set forth in its
per curiam opinion rather than on the district court's Heck s barred
"final decision," this Supreme Court has foreclosed the Court of
Appeals' § 2401(b)'s time bar in United States v Kwai Fun Wong,
575 U.S. 402 (2015);
2.

Petitioner's due date for his Writ of Certiorari is on July 27,2020.

9

In Kwai Fun Wong, this Court rejected the Government's
argument and conclude that courts may toll both of FTCA's § 2401
(b) limitations periods. Id. Whereas here, in February of 2018,
Petitioner on his own "discovered" that the United States Respondent's
engaged in "fraudulent concealment" of his 'actual arrest and tortious
detention' without legal process lacked probable cause and still
remains unadjudicated on the merits since July 24,1999. Thus,
3
"a claim accrues when the plaintiff becomes aware of his injury,
Unitp.d Staf.ss v Knhri r,k, 444 U.S. 111,123(1979), or when he is put
on notice...to make reasonable inquiry as to whether a claim exists."
Accordingly, the Fourth Circuit unpublished opinion did not consider
Petitioner's contention that the United States Respondent had concealed
his warrantless arrest without probable cause from the District Court
for reviewed on the merits;
Furthermore, this Court has held that "time bars in suits
between private parties are presumptively subject tom equitably
tolling,Irvin v Department of Veteran Affair,498 U.S. 89, at 95-96
(1990);see also Kwai Fun Wong,575 U.S. at 407. That means a court
usually may pause the running of limitations statute in private
litigation when a party "has pursued his rights diligently but some
extraordinary circumstances"!] in Petitioner's concealed warrantless
arrest lacked probable cause case here] prevents him from meeting
SC three years deadline. Kwai Fun Wong,575 U.S. at 408. This Court

First, Petitioner became aware for the the first time in Feb. of
3.
2018, that the Respondent's prevented him and the court from knowing
of the warrantless arrest lacked probable cause on July 24,1999 and
Second, neither the Court or Petitioner were put on notice.

10

also held in Irvin, that"the same rebuttable presumption of equitable
tolling" should also applies to suits brought against the United
States under a statute waiving sovereign immunity,498 U.S. at 95-96;
In this case at bar, this Supreme Court should also apply
equitably tolling here to suits brought against the United States
under the FTCA's law enforcement proviso § 2680(h) exception for
false arrest and false imprisonment waiving sovereign immunity see
Millbrook v United States,569 U.S. 50( "28 U.S.C. §§ 1346(b),26712680 which waives the government's sovereign immunity from tort
suits, including those based on certain intentional torts committed
by federal law enforcement officers,§ 2680(h)");
Moreover, it is true, as this Supreme Court has held, that
"the fraudulent concealment tolling doctrine is to be

read into

every federal statute of limitation.'" See Holmberg v Armbrecht,
327 U.S. 392,397(1946). Petitioner contends that, Kwai Fun Wong,

4
and Holmberg, ends the inquiry and makes § 2401(b)'s 2-years or 6-months
like "every federal statute of limitations," 575 U.S. at 407, 327
U.S. at 397, subject to tolling based on fraudulent concealment;
Next, the district court's reliance on Heck's bar is misplaced.
The Fourth Amendment claim in Heck was fundamentally different from
Petitioner s Fourth Amendment claim here. Unlike the plaintiff in
Heck, Petitioner was arrested and detained without legal process-a warrantless arrest. Therefore, the malicious prosecution paradigm
applied by this Court in Heck does not fit here. See Wallace v Kato,

4. The Fourth Circuit's opinion is inadequate as to whether § 2401
(b)'s time bar 2 -years or 6 months or both applies in Petitioner's
case.
11

549 U.S. 384 at 397( 2007);
In Wallace, this Court found that the plaintiff unlawful
warrantless arrest Fourth Amendment claim resembled a false imprisonment
claim, because the constitutional violation occurred when the plaintiff
was arrested without a warrant. Law enforcement officers transported
the fifteen-year-old plaintiff to a police station-without a warrant
or probable cause to arrest him-and interrogated him into the early
morning id. at 386,389; see also Supra, at B'andC;
Here, Petitioner's FTCA's law enforcement proviso seeking monetary damages for his arbitrarily arrest and tortious detention that
resulted from without legal process-i.e. from a Saturday, July 24,
1999, warrantless arrest--most closely resembles a common-law claims
for "the intentional torts of false arrest and false imprisonment See
Wallace,549 U.S. at 397, rather than Heck1s bar relied on the district
court for "arrest with legal process unsupported by probable cause
( malicious prosecution);
For the foregoing reasons, the Fourth Circuit's unpublished
opinion judgment should be vacated and remand is necessary for further
proceeding consistent with this Supreme Court's Order to allow
Petitioner's FTCA's law enforcement proviso for false arrest and
false imprisonment to service on process upon the United States
Respondent to answer, as required by Fed. R. Civ. P. Rule 4(i)(A)(l);

12

REASONS FOR GRANTING THE PETITION

The reasons for granting the petition is simply based on
two specified conditions:(1) It is undisputed here that the United
States Respondent FBI Waizenhofer qualified.as investigative/law
enforcement officer See 18 U.S.C. § 3052 and (2) The Constitutional
Fourth Amendment violation occurred in SC when the Petitioner was
arrested on July .24,1999, without legal process lacked probable
cause--most resembles a common-law [ intentional] torts for false
arrest and false imprisonment See Wallace.549 U.S. at 397; see also
Millbrook v United States,569 U.S. 50, at 54, citing

Ignacio v

United States,674 F.3d 252,256( 4th Cit.2012)("holding that the law
enforcement proviso "waives immunity whenever an investigative or
law enforcement officer commits one of the specified intentional,
regardless of whether the officer is engaged in investigative or
law enforcement activity"(emphasis added));
WHEREFORE, this Supreme Court should grant the petition for
a Writ of Certiorari because the Petitioner has satisfied two
conditions specified by the FTCA's law enforcement proviso § 2680
(h) exception enacted in 1974, which waive the United States's
sovereign immunity from actions arising out of false arrest and
false imprisonment by FBI waizenhofer's bad faith;

13

CONCLUSION
For the reasons set forth above,
it is respectfully submitted that:

The petition for a writ of certiorari should bejgrantecL

Respectfully submitted,
i

-ffr i

Date: July 23

2020

14

